HHS/OIG, Audit -"Review of Outpatient Cardiac Rehabilitation Services at Pottsville Hospital, Pottsville, Pennsylvania,"(A-03-03-00009)
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Review of Outpatient Cardiac Rehabilitation Services at Pottsville Hospital, Pottsville, Pennsylvania," (A-03-03-00009)
October 28, 2003
Complete
Text of Report is available in PDF format (423 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this review was to determine whether Medicare
properly reimbursed Pottsville Hospital (Pottsville) for outpatient cardiac rehabilitation services.  Even though
physician supervision is assumed to be met in an outpatient hospital department, Pottsville contracted with two physicians
to supervise the services provided by its cardiac rehabilitation program.  The physicians responsibilities included
approving the cardiac rehabilitation plans of care and reviewing patients medical records.  However, our review
disclosed that the physicians generally were not in the exercise area during regularly scheduled exercise sessions, nor
did they generally see the patients. In addition, from our specific claims review for a sample of 30 beneficiaries
who received outpatient cardiac rehabilitation services during CY 2001, we determined that Pottsville received Medicare
payments of $395 for services where the diagnoses used to establish the patients eligibility for cardiac rehabilitation
may not have been supported by medical records and for services not otherwise allowable.